<html>
<title> - SEVEN YEARS OF GPRA: HAS THE RESULTS ACT PROVIDED RESULTS?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





       SEVEN YEARS OF GPRA: HAS THE RESULTS ACT PROVIDED RESULTS?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2000

                               __________

                           Serial No. 106-245

                               __________

       Printed for the use of the Committee on Government Reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
73-837 DTP                  WASHINGTON : 2001

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001

  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
               Robert Alloway, Professional Staff Member
                           Bryan Sisk, Clerk
          Mark Stephenson, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2000....................................     1
Statement of:
    Armey, Hon. Richard K., a Representative in Congress from the 
      State of Texas, and Majority Leader, U.S. House of 
      Representatives; and Hon. Pete Sessions, a Representative 
      in Congress from the State of Texas and chairman, House 
      Results Caucus.............................................     7
    Gotbaum, Joshua, Executive Associate Director and Controller 
      and Acting Deputy Director for Management, Office of 
      Management and Budget; Christopher Mihm, Associate 
      Director, Federal Management and Workforce Issues, U.S. 
      General Accounting Office; Maurice McTigue, distinguished 
      visiting scholar, Mercatus Institute, George Mason 
      University; and Ellen Taylor, policy analyst, OMB Watch....    22
Letters, statements, etc., submitted for the record by:
    Armey, Hon. Richard K., a Representative in Congress from the 
      State of Texas, and Majority Leader, U.S. House of 
      Representatives, prepared statement of.....................    10
    Gotbaum, Joshua, Executive Associate Director and Controller 
      and Acting Deputy Director for Management, Office of 
      Management and Budget, prepared statement of...............    25
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    McTigue, Maurice, distinguished visiting scholar, Mercatus 
      Institute, George Mason University, prepared statement of..    51
    Mihm, Christopher, Associate Director, Federal Management and 
      Workforce Issues, U.S. General Accounting Office, prepared 
      statement of...............................................    34
    Sessions, Hon. Pete, a Representative in Congress from the 
      State of Texas and chairman, House Results Caucus, prepared 
      statement of...............................................    17
    Taylor, Ellen, policy analyst, OMB Watch, prepared statement 
      of.........................................................   104
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     6

 
       SEVEN YEARS OF GPRA: HAS THE RESULTS ACT PROVIDED RESULTS?

                              ----------                              


                        THURSDAY, JULY 20, 2000

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Turner, and Maloney.
    Staff present: J. Russell George, staff director and chief 
counsel; Earl Pierce, professional staff member; Bonnie Heald, 
director of communications; Bryan Sisk, clerk; Elizabeth Seong, 
staff assistant; Will Ackerly and Davidson Hulfish, interns; 
Trey Henderson, minority counsel; and Jean Gosa, minority 
clerk.
    Mr. Horn. We are here today to examine the implementation 
of the Government Performance and Results Act of 1993. This is 
a very important process.
    The act was designed to evaluate whether Federal agencies 
and programs are accomplishing their missions. Once the law has 
been successfully implemented, the American people will be able 
to ask and receive an accurate answer to the question, what are 
we getting for our money? The Results Act encourages efficiency 
and accountability in government spending by requiring agencies 
to justify how they spend their portion of the Government's 
$1.8 trillion budget. The law requires agencies to set goals 
and use performance measures for their management and 
budgeting.
    In a 1997 hearing before this subcommittee, Christopher 
Mihm of the General Accounting Office testified that 
implementation of the act varied among executive branch 
agencies in quality, utility and responsiveness to the law. In 
1999, the General Accounting Office found that only 14 of 35 
agencies defined some type of relationship between the program 
activities on their proposed budgets and the performance goals 
cited in their plans. Yet, few of the 14 agencies explained how 
they would use their funding to achieve these goals.
    Clearly, agencies have made progress in linking program 
planning with their budget requests. Yet, much work remains 
before
Congress can use this performance information as a significant 
tool in the budget allocation process. Nevertheless, once the 
Results Act has been successfully implemented, it will help us 
achieve a more efficient, effective and responsive government.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.001
    
    [GRAPHIC] [TIFF OMITTED] T3837.002
    
    Mr. Horn. We are honored to have as our lead witnesses, the 
Majority Leader of the House, the gentleman from Texas, Mr. 
Armey, and the chairman of the House Results Caucus headed by 
the gentleman from Texas, Mr. Sessions.
    We welcome all of our witnesses today and we look forward 
to their testimony.
    You know the routine here, my friend, and the full 
statement goes into the record automatically when you are 
introduced, resume and all. In a minute, I am going to yield to 
another gentleman from Texas. This seems to be a Texas day 
here. I hope the Texas Society is out here somewhere.
    Mr. Sessions. Let us hope the rest of the year continues 
that way, Mr. Chairman. [Laughter.]
    Mr. Horn. I agree with you.
    That is how it works and in the meantime, the gentleman 
from Texas, Mr. Turner, our ranking member, will have his 
opening statement.
    Mr. Turner. Thank you, Mr. Chairman.
    Being from California, you certainly defer to Texas. We 
appreciate it.
    This March, for the first time under the Results Act, 
agencies Governmentwide were required to report on their 
results in achieving their goals. I think we all agree that 
this bipartisan legislation we call the Results Act has been an 
effective tool for enhancing government performance and 
efficiency. Its intent is to fundamentally shift the focus of 
our Federal Government and to be sure that we move from a 
preoccupation with staffing and activity levels to a focus on 
outcomes in Federal programs.
    Outcomes are the results expressed in terms of real 
differences in Federal programs and the impact those programs 
make in peoples' lives such as increase in real wages earned by 
graduates of an unemployment training program, or a reduction 
in fatality and injury rates in workplaces or on our highways.
    Congress and its committees can and have been involved in 
the Results Act at all stages. Committees have a means to 
develop and amend the strategic plans as well as the annual 
performance plans. Agency officials have said that evidence of 
real involvement and interest on the part of congressional 
committees in using performance goals and information to help 
in congressional decisionmaking would help to build and sustain 
support for the Results Act within the agencies.
    As a result, as Members of Congress, we have an obligation 
to work with all of the executive branch's agencies to be sure 
GPRA is the tool that improves the efficiency of the Federal 
Government. I believe that a strong and sustained congressional 
attention to GPRA is needed to ensure the success of the act 
and I know that goal is shared by Chairman Horn. I commend the 
chairman as well as my colleagues from Texas for their strong 
support of this very critical effort on the part of this 
Congress.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.003
    
    Mr. Horn. I thank the gentleman.
    Now we have the ``el tremendo'' gentleman from Texas. We 
are delighted to have the Majority Leader here. He has been a 
backer of the results-oriented approach from day 1. We are 
pleased to have him here. We will have a few questions for him 
but I know he has a busy day.
    The gentleman from Texas, the Majority Leader, Mr. Armey.

   STATEMENTS OF HON. RICHARD K. ARMEY, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF TEXAS, AND MAJORITY LEADER, U.S. 
      HOUSE OF REPRESENTATIVES; AND HON. PETE SESSIONS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS AND 
                 CHAIRMAN, HOUSE RESULTS CAUCUS

    Mr. Armey. Thank you, Mr. Chairman.
    Let me first appreciate the work that your committee has 
done. I think as much as any committee in Congress, this 
subcommittee and this committee has led our efforts under the 
Results Act.
    The Results Act, as you know, was passed in 1993 and it was 
designed to bring accountability and performance in government 
agencies to the American people. Every one of us, as a Member 
of Congress, will get testimony from back home in that area of 
our work which we most often refer to as case work about the 
extent to which the agencies are providing the services in the 
lives of our constituents, the American people, who pay for 
these agencies, and by whose authority the agencies exist. All 
too often we find ourselves frustrated along with our 
constituents in the agency not performing.
    This has been, I think, a particularly heart warming 
experience for me to be able to be involved in the Results Act. 
The Results Act basically says to every agency, have a clear 
understanding of what you are doing, be able to express that to 
us, tell us what your mission is and give us some evidence of 
your ability to achieve the results you desire.
    We give the agency a great deal of latitude there. If we 
have a quarrel with what they believe and express to be their 
mission, we can take that up legislatively, but the fundamental 
question is, do you in fact have an ability to demonstrate that 
you are getting results, even as you define your mission? We 
have encouraged this.
    I have to tell you, to a large extent, what we did when we 
passed the Results Act was ask the agencies to conform to a new 
regime of accountability. I, for one, was more than willing to 
be patient and encouraging. I have always argued that for any 
of us in any occupation of our life, adaptation to change the 
adoption and the performance under new regimes are always 
something we must have some time and encouragement in doing, 
and we have done that.
    What you have seen happening simultaneously over the past 
couple of years is congressional oversight that has been 
designed to in fact encourage greater performance--your 
scorecards being very important in that regard--and at the same 
time, for us to give a very strong view of the results that are 
there.
    I think, quite frankly, this Congress has been encouraging 
and it has been diligent in oversight. You have seen the 
oversight extension go to other committees across Congress and 
more committees have taken up the understanding of the 
implementation of their role in oversight in this regard.
    I have to tell you, Mr. Chairman, despite all the time and 
effort that we have spent being encouraging in this manner, I 
have come to a moment of some disappointment. Our latest 
evaluations of performance are frankly disappointing to me. 
Every agency in the Federal Government has had a chance to 
travel that learning curve and frankly, should be doing better, 
each and every one of them.
    I think we need to appreciate the performance of the 
General Accounting Office. They worked very hard on this, they 
have taken it seriously and they have been very supportive 
again, both to the committee and to the agencies, but we have 
had independent reviews that have supported their own analysis 
from George Mason University and other reviewers across the 
country that it just isn't working well enough for the American 
people.
    I think what we need to do today perhaps is start to just 
step it up another level. My friend, Pete Sessions, came to me 
early on when we began talking about Results Act and said, I 
would like to form a Results Caucus. He and his caucus have 
been very active in that and we will hear from Pete in a 
moment.
    While I don't think we should ever be a singularly 
discouraging voice out there, I think while we continue our 
encouragement, we must at this point be a little demanding.
    Finally, let me say two final points. One, I have taken 
that initiative a little bit with something that perhaps you 
have seen the ``waste-o-meter.'' We try to keep a better track 
of this, try to publicize the results and try to arm our 
budgeteers and appropriators with real information should it 
become necessary as we try to implement an overall, rigorous 
budget process, fighting against demands for new, more 
spending, to document that spending is not necessarily 
justifiable given the levels of waste we have uncovered from 
the committees reporting today and the reports we have had, and 
the fine work of GAO, some $16 billion uncovered already this 
year, that we have talked about.
    Finally, if I might chafe a little under the bit, at or 
about the time we created the Results Act, the Vice President 
of the United States, Al Gore, was billed as the 
administration's leader in this effort in what he called the 
whole effort to reinvent government. I know there was a great 
deal of public relations there but the fact of the matter is 
that the Results Act and any efforts to reinvent government, 
enforce accountability in Government lay fallow until this 
congressional majority took over in 1995.
    Therefore, it irritates me a little bit when constituents 
come into my office with severe disappointments, sometimes 
heartbreaking disappointments about agencies that just aren't 
performing as they should be for them. People come to my office 
here, people sometimes with multibillion dollar private 
agreements that are being held up by some agency that just 
won't make a decision.
    We don't necessarily sit in Congress and say to the agency, 
you should make this or that decision but I think we have a 
responsibility to say, make a decision--a disservice to the 
people by virtue of agencies not performing.
    To have the Vice President criticize this Congress that has 
tried through all our oversight efforts in so many ways to 
encourage this better service, refer to us as a do nothing for 
the people Congress, I must say gets under my skin a little 
bit. I have to say, where were you, Mr. Vice President, after 
all the publicity waned over reinventing government; where were 
you when it came time to dig in as committee after committee 
has done here and implement the rigor, maintain the oversight 
and continue the encouragement and at times, if necessary, 
express some anger?
    We have done that. Your committee has done that. As I said, 
other committees have done that and the fact of the matter is, 
we are getting improvement, but it is not coming fast enough. 
You will hear further testimony today about that.
    I guess my parting word would be, let us not only continue 
but continue to expand our effort across the Congress to 
implement this because the goal is worthy. The objectives of 
the Results Act are laudable. We have said to the American 
people, we are determined to not only make it clear in every 
agency of this government, a shared understanding of what your 
mission is, what your duty is to the American people, but to 
give one another encouragement, prodding and at times, if 
necessary, criticism in seeing to it that the American people 
get the services they deserve from the agencies created by this 
Congress on their behalf.
    Let me again thank you for letting me be here this morning. 
Let me again encourage you to continue your fine work and I 
express my firm belief that as we continue in understanding and 
implementing GPRA, we will make this government a government 
that is a better service in the lives of its constituents and 
that is what this government has an obligation to be.
    Thank you.
    [The prepared statement of Hon. Dick Armey follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.004
    
    [GRAPHIC] [TIFF OMITTED] T3837.005
    
    [GRAPHIC] [TIFF OMITTED] T3837.006
    
    [GRAPHIC] [TIFF OMITTED] T3837.007
    
    Mr. Horn. We thank you. Those are very worthwhile bits of 
wisdom. By the way, when we did take over this committee in 
1995, we did offer an invitation to the Vice President on 
several occasions and we told him it wasn't one where we were 
going to crab a lot about it, we just thought he was trying to 
do a good job and we will give you a forum. We wouldn't even 
get that.
    Let me ask you on this serious business. I have a feeling, 
and I did say it once either in the retreat or in the 
conference but nobody listens to humble subcommittee chairs but 
they will listen to you.
    I think under your leadership, if we can get the chairs of 
the full authorization committees, the chairs of the 
Subcommittees on Appropriations, and get their political 
counterparts--Presidential nominees, be it Secretary, Deputy 
Secretary, Assistant Secretary--in the same place around a 
table and say, we have read through what some of your goals 
are, show me where in the law this is based. I just think we 
have to get a dialog of principals, not just a dialog of staff. 
With all due respect to the wonderful staff around here, the 
fact is, they are not elected and the executive branch at least 
has the imprimatur of the President's nomination and the 
confirmation of the Senate. I think that closure has not been 
very good.
    Mr. Armey. I appreciate that point. I couldn't agree with 
you more. It has to be a full partnership. This is a big 
government. Any big enterprise like this, it is easy for people 
to lay down on the job and let it be overlooked or to have 
confusions about what their jobs are and let that not be 
clearly understood.
    It does take a partnership effort I think between the 
House, the Senate and the executive branch to make something 
that is frankly this bold and large--imagine this. If you went 
before any college class in America and said, my job is to make 
sure the Federal Government, as large as it is, never misses a 
beat in serving to the best of its ability, the needs of the 
American people, you would astound people with just how 
enormous that task is. No small group of people can do that. We 
must all work on it together.
    That is why I have tried to use the authorities of my 
office to encourage that and I think your point is well taken. 
We have to do a better job all the way around.
    Mr. Horn. I thank you and I know you have other things to 
do but if you want to stay and listen to Mr. Sessions, fine. We 
would welcome you.
    Does the gentleman from Texas have any questions for the 
Majority Leader?
    Mr. Turner. No.
    Mr. Sessions. Majority Leader, are you going to stay or 
stick around?
    Mr. Armey. I might stay a little bit because I am so proud 
of you. If I may, Mr. Chairman, my good colleague just got a 
clean bill of health from Baylor University and they said he 
was good looking too, so I am going to stay.
    Mr. Sessions. It is true, I went in for a little bit of day 
surgery and everything turned out all right.
    I thank my good friend, the Majority Leader.
    Mr. Sessions. Mr. Chairman, thank you so much for asking me 
to be here today.
    I would also like to give the same accolades to the 
gentleman from Texas, Mr. Turner. He and I have numerous 
conversations, as you and I do, Mr. Chairman, and I have found 
that Mr. Turner is not only focused on government efficiency, 
but that his answer to the problems is right in line with the 
things you and I are attempting to accomplish. I would like to 
applaud the gentleman for his leadership and work on that also. 
I thank Mr. Turner for that.
    As you know, the Results Caucus is interested in giving 
this government every single dollar it needs but not a penny 
more. Today, you are hearing testimony from Majority Leader 
Armey from Texas talk about his observations as the father and 
leader of the GPRA and other things that have come through this 
Congress that would empower and give stature to government 
agencies to be able to resolve their own problems.
    Mr. Armey and I have, for quite some time, decided that 
there is a time and a process that would allow this government 
the opportunity to see that a process that would encourage 
efficiency was important. We have also decided that we were not 
going to become frustrated, that we were going to work with 
agencies, work with GAO, work toward resolution of problems.
    The fact of the matter is that I believe the gentleman from 
Texas, Mr. Armey and I concur. It seems like the government has 
had time to work through these problems and they have not made 
as much progress as either one of us would have wanted.
    The Results Act, as you know, was a challenge for agency 
directors and those managers of the government to run their 
agencies more efficiently. It was created as a challenge, as an 
opportunity for them to focus on the near term needs of the 
government by them establishing those goals and directions they 
would like to go into.
    The fact of the matter is that as technology and time has 
played its course, many Federal programs are still dramatically 
underperforming, inefficient and have become functionally 
obsolete. This government and its managers have not even 
recognized those changes and taken hold of that.
    I believe that the Results Act, which was designed to 
address those problems as well as to functionally require that 
the Government managers would be attuned to those changes has 
not worked. I have not seen agencies using the Results Act as a 
helpful management tool. I will repeat, I have not seen the 
agencies use the Results Act as a helpful management tool which 
it was completely designed for.
    The performance plans the agencies produce are often still 
too broad, they are attempting to solve every agency problem 
with a large stroke of a brush rather than specifically 
focusing on a structured performance plan to focus or to move 
toward reform by addressing those immediate problems that face 
their agency.
    I continue to have, as Majority Leader Armey and both you, 
Mr. Chairman, and Mr. Turner, regular talks with agencies about 
their performance, regular talks with agencies about how they 
perform their job. I will tell you that the feedback I hear is 
that the managers of the government see the Results Act as 
cumbersome and yet just another hoop to jump through.
    I am disappointed. I am disappointed because I do not 
believe that the agencies have looked at what this is all 
about. I don't believe they have worked hard enough to make it 
work and I further do not believe that they view it as a value 
added process.
    We will continue to focus on the job of oversight. Mr. 
Armey and I will continue not to be frustrated, but I will tell 
you, Mr. Chairman, we will not yield back to believing that the 
Government, regardless of how big it is, should not be 
efficient. We believe a government or an organization, even the 
smallest in this Government, should become efficient and should 
do what its mandate is laid out to be.
    Last, I would say this. While I have said we are not going 
to be frustrated, you can anticipate and expect that the 
Majority Leader and the Results Caucus led by me will continue 
to speak out on the issues where we see problems. We do 
appreciate what this committee is doing as well as the 
gentleman from Indiana, Mr. Burton, and the whole committee, 
and we want to continue working with you.
    Today, you are going to hear from people who have specific 
examples, ideas about how we can make it better, and I 
encourage this committee to address that in the way they 
choose. We will continue to be a value added partner.
    I thank you for the opportunity to be here.
    Last, I would say this, and ask unanimous consent to say 
this, I have a professor to my right, Dr. Armey; I also have a 
professor from my university, Dr. Weldon Crowley, who is here. 
Dr. Crowley was my history professor. So many times we talk 
about learning things in fifth grade, how government works and 
playing them out here. In this case, it was at Southwestern 
University as a young student where my professor, Dr. Weldon 
Crowley, a man who is very distinguished in what he does, to 
teach me the ways of government and here we are playing them 
out today with the Majority Leader and this esteemed committee.
    I thank you, Mr. Chairman.
    [The prepared statement of Hon. Pete Sessions follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.008
    
    [GRAPHIC] [TIFF OMITTED] T3837.009
    
    [GRAPHIC] [TIFF OMITTED] T3837.090
    
    [GRAPHIC] [TIFF OMITTED] T3837.091
    
    [GRAPHIC] [TIFF OMITTED] T3837.092
    
    Mr. Horn. We thank you and we welcome you to the chamber 
here. I know it must have been tremendous to get all that 
knowledge in his head and maybe you should be a distinguished 
trustee professor for life as a result of that. [Laughter.]
    We thank the gentleman from Texas, Mr. Sessions. He has 
done a terrific job with the Results Caucus. We will be putting 
out our dear colleague bit which I hope will help you based on 
the General Accounting Office, as to where the waste is in a 
lot of agencies which we have done about every 6 months or so.
    Thank you both for coming.
    Unless Mr. Turner has some questions, you have heard mine 
and I thank you very much.
    We will have now panel two, the Honorable Joshua Gotbaum, 
Christopher Mihm, Maurice McTigue and Ellen Taylor.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note the four witnesses have 
affirmed the oath.
    We will begin with the Honorable Joshua Gotbaum, Executive 
Associate Director and Controller, and Acting Deputy Director 
for Management, Office of Management and Budget. I think you 
have appeared three times or so this last month. We thank you.

STATEMENTS OF JOSHUA GOTBAUM, EXECUTIVE ASSOCIATE DIRECTOR AND 
CONTROLLER AND ACTING DEPUTY DIRECTOR FOR MANAGEMENT, OFFICE OF 
 MANAGEMENT AND BUDGET; CHRISTOPHER MIHM, ASSOCIATE DIRECTOR, 
     FEDERAL MANAGEMENT AND WORKFORCE ISSUES, U.S. GENERAL 
  ACCOUNTING OFFICE; MAURICE MCTIGUE, DISTINGUISHED VISITING 
SCHOLAR, MERCATUS INSTITUTE, GEORGE MASON UNIVERSITY; AND ELLEN 
               TAYLOR, POLICY ANALYST, OMB WATCH

    Mr. Gotbaum. Yes, Mr. Chairman, but since each of them is 
something that is quite important to the business of 
government, I am actually grateful.
    Mr. Horn. You know the routine which is your paper is 
already in the hearing record. We would like a summary of it 
and you don't have to read it because we have read it.
    Mr. Gotbaum. I appreciate that.
    I would note that I am joined this morning by a number of 
folks from OMB staff, including Jimmy Charney, Texas A&M, 1996, 
who wanted me to make sure you knew that Mr. Turner's colleague 
was an alumnus of his.
    I don't want to spend a lot of time in this committee 
talking about the importance of GPRA because I think it is 
crystal clear that this committee recognizes it is important. I 
think it is important to affirm that the administration does 
too and that as this committee knows, each year we put out a 
set of priority management objectives. For the last several 
years, performance measurement has been PMO 2 because Y2K was 
PMO 1. This year performance management, using performance 
data, is PMO 1.
    The story of our implementing this law, which was passed 
with bipartisan support and which we strongly endorse, is I 
think a story of real effort and some real success and a long 
way to go. I think we should be honest about that.
    I have listed in my testimony the fact that 100 Federal 
agencies have turned out strategic plans and performance plans 
and performance reports and this year, for the first time, they 
all turned out performance reports and we think this is a very 
important milestone.
    What I would like to do is talk about the risks that we 
face--how we go from here--and what the challenges are. I am 
happy to talk in questioning about what individual agencies 
have done.
    We are still learning what the right measures are. This is 
a difficult task, something the Government hadn't done before, 
particularly systematically and certainly not with the force of 
law. GPRA is not a one size fits all business. What we find is 
that as agencies develop their measures, and try to implement 
them, there is a trial and error process. That necessarily 
involves error and it involves allowing people to learn from 
their mistakes.
    Let me list one of my personal favorites which is the 
Occupational Safety and Health Administration. OSHA wanted to 
implement the law, so they said, we are going to measure and 
keep track of the number of inspections we do. Then they 
realized that this was an intermediate measure, a measure of 
their effort but not a result. They said, we are really in the 
business of workplace safety, so maybe we should be tracking 
and measuring and sending our troops based on where the 
workplaces are safe or not safe. They reformed the way they did 
business.
    This had a couple of powerful effects. One, it enabled them 
to be more effective in their job, and two, it enabled the 
businesses they regulate to understand what the right goals 
were. I mention this because I think it is very important as we 
implement GPRA and as you provide oversight to both encourage 
these guys to do it and allow them to make mistakes and 
encourage them to correct and improve the results.
    We need both outcome and output measures. There are some 
who say that agencies should only be measured by how they are 
doing in reducing poverty or improving the quality of housing, 
or reducing unemployment rate. We agree that agencies should be 
measured by that but it would be a mistake to throw out all 
measures of output because it matters to the Government, it 
matters to the citizens, and I believe it matters to the 
Congress how efficiently agencies do things.
    So while I think it is very important that we keep track of 
measures of unemployment and how they change as a result of job 
training programs, if we can figure that, it is equally 
important that we tell the Social Security Administration that 
they ought to watch how long it takes for them to answer the 
telephone.
    The real challenge of GPRA is moving beyond report writing. 
It is in taking performance information and using it in program 
management and budgeting. There are people who argue that we 
should measure the success of our implementation of GPRA by the 
clarity of reports or the validity of the data used. I must 
strenuously disagree. They matter but those are output 
measures. Those are not outcome measures.
    The outcome that we are trying to get is to have 
performance information used routinely by agencies to measure 
how they manage their programs and by OMB and you in how you 
review their programs and their budgets.
    This is hard stuff because it means you have to pick the 
right measures, you have to put them out there and get 
agreement on them, you have to put them in your management 
systems and then you have to use them, but we are beginning.
    In budgeting, we have always used and looked for, 
performance information. What GPRA has done is added the force 
of law to that requirement and as a result, we are increasingly 
using performance information in budget decisions. I have 
listed some examples in my testimony.
    OMB strongly supports this. We are using it. We too are 
learning how to incorporate performance information into the 
budgeting process. We started by giving guidance on plans and 
then when we got the plans saying how do you incorporate this 
into budget decisions? We then said to the agencies, send us 
performance information with your budget plans. We started 
using it internally.
    This year we moved a step ahead: We said to the agencies, 
send us your performance plan as part of your budget 
submission. What we were trying to do was ask the agencies to 
integrate performance measures and budgeting so that we can do 
a better job. As a result, we hope you will agree they will do 
a better job.
    We have a very long way to go. We have a long way to go in 
improving the measures we use, a long way to go in integrating 
them into management and budget, and we have a long way to go 
in realigning budgets, programs and organizations as a result 
of those reviews, but we are, I hope the committee recognizes, 
beginning. This leads me to my last point, which is the role of 
Congress.
    We are enormously grateful for the attention that this 
committee and this Congress places on the Government 
Performance and Results Act. We think it is essential that you 
review progress and hold everybody's feet to the fire.
    I view this as an issue of combining patience and pressure. 
One of the things for which we are grateful is that the 
Congress has recognized this is a trial and error process. We 
have to keep working at it. I was enormously gratified at the 
statements by Congressman Sessions and Mr. Armey because they 
recognize this takes time. But you have to hold our feet to the 
fire.
    That is really my last request, which is that you continue 
to do so. Hearings like this one, every time you hold one, send 
a message. Your suggestion, Mr. Chairman, of combining forces 
with appropriations and authorizing committees would make the 
message even clearer. We hope it is something the Congress will 
take to heart.
    In closing, all I will say is, however you choose to do it, 
we are committed to working with you, to delivering on the 
promise of performance, and as a result, to deliver the quality 
of government the American people deserve.
    Thank you.
    [The prepared statement of Mr. Gotbaum follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.010
    
    [GRAPHIC] [TIFF OMITTED] T3837.011
    
    [GRAPHIC] [TIFF OMITTED] T3837.012
    
    [GRAPHIC] [TIFF OMITTED] T3837.013
    
    [GRAPHIC] [TIFF OMITTED] T3837.014
    
    [GRAPHIC] [TIFF OMITTED] T3837.015
    
    [GRAPHIC] [TIFF OMITTED] T3837.016
    
    Mr. Horn. Thank you. That is a very optimistic view and I 
am glad to hear it.
    Now we go back to a regular also here and that is 
Christopher Mihm, Associate Director, Federal Management and 
Workforce Issues, U.S. General Accounting Office, part of the 
legislative branch.
    Mr. Mihm. Yes, sir.
    Thank you, Mr. Chairman and Mr. Turner. Once again, it is 
an honor and a pleasure to appear before you to discuss the 
Government Performance and Results Act.
    The issuance last spring of the first performance reports 
showing the degree to which agencies met their goals and the 
strategies and plans they have to meet unmet goals, along with 
their annual performance plans and strategic plans and the 
Governmentwide performance plans, represents a new and 
potentially more substantive phase of GPRA implementation. That 
is, we have now completed the first full cycle of the act in 
its planning and reporting requirements.
    For GPRA to be fully useful to Congress and the executive 
branch, however, agencies need to make continued progress in 
addressing a set of five enduring challenges that we have 
reported on fairly consistently: first, articulating the 
results orientation; second, coordinating cross-cutting 
programs; third, showing the performance consequences of budget 
decisions which you highlighted in your opening statement; 
fourth, showing how daily operations contribute to results--one 
of the issues that Mr. Gotbaum raised--and fifth, building the 
capacity to gather and use performance information.
    First, in regards to adopting a results orientation, the 
challenge confronting agencies is to develop a clear sense of 
the results to be achieved as opposed to the products and 
services the agency produces. The lack of a comprehensive set 
of goals that focused on results was one of the central 
weaknesses that we saw when we looked at the fiscal year 1999 
annual performance plans.
    Important progress was made over the next year and all of 
the fiscal year 2000 plans we looked at, the plans the agencies 
are operating under now, contained at least some goals and 
measures that addressed program results. Still, detailed in my 
written statement, there are plenty of opportunities for 
continued progress in that area.
    Second, coordinating cross-cutting programs: we have found 
that unfocused and uncoordinated cross-cutting programs waste 
scarce resources, confuse and frustrate taxpayers and program 
beneficiaries--as the Majority Leader pointed out in the 
casework examples he discussed--and limit overall program 
effectiveness.
    Although the fiscal year 2000 plans indicate that agencies 
continue to make progress in coordinating these cross-cutting 
programs, we are still finding they need to complete the far 
more difficult and substantive task of establishing 
complementary performance goals, mutually reinforcing 
strategies and where appropriate, common performance measures.
    Third, a key objective of GPRA is to help Congress develop 
a clearer understanding of what is being achieved in relation 
to what is being spent. We are finding that agencies are making 
incremental progress in developing the useful linkages between 
their annual budget request and performance plans but that much 
additional work is needed in this area as well.
    The actions of many agencies during fiscal years 1999 and 
2000 performance planning cycles constituted important first 
steps but, I would stress, just first steps in forging closer 
links between the plans and budgets and could be seen in 
essence as a baseline from which to assess future progress.
    Fourth, understanding and articulating how agencies' day-
to-day operations contribute to results is a critical element 
of GPRA implementation. Mr. Gotbaum mentioned the excellent 
example of the experiences over at OSHA and I would underscore 
that. The point there is that as OSHA and other agencies begin 
to move beyond what they do on a day-to-day basis and consider 
the results they are designed to achieve, that often opens 
whole new avenues for them to explore in terms of strategies 
and program initiatives they should be undertaking that would 
lead them to more effectively achieve the results.
    Fifth, we found although the fiscal year 2000 plans 
contained valuable and informative information relating 
strategies and programs to goals, there was plenty of work that 
was still needed in that area. Let me mention two in 
particular.
    First, the virtual absence of discussions of human capital, 
which as you know from the Comptroller General earlier this 
week, is a major concern. The fiscal year 2000 plans suggested 
that one of the critical components of high performing 
organizations, the systematic integration of human capital and 
performance planning, is not being adequately addressed 
throughout the Federal Government.
    More broadly, any serious effort to fundamentally improve 
the performance of Federal agencies must address the management 
challenges and program risks including those elements on our 
high risk list. This obviously was the point that Mr. Sessions 
was making. Unfortunately, the fiscal year 2000 plan showed 
inconsistent attention to the need to resolve these issues.
    The fifth and final key challenge we found deals with the 
substantial and longstanding limitations in agency ability to 
produce credible performance information. In fact, these 
challenges and the lack of credible performance information is 
one of the greatest continuing weaknesses with GPRA 
implementation.
    In summary, GPRA has the potential and is already beginning 
to help Congress and the executive branch ensure that the 
Federal Government provides results the American people care 
about. We look forward to continuing to support the Congress in 
this regard and in any way we can to meet your needs.
    As you know from my prepared statement, one of the things 
we suggest is under House Rule 10, the oversight plans that the 
standing committees must send to this committee could be used 
as a vehicle for further drilling GPRA into congressional 
oversight plans. We look forward to helping you with that or in 
any other way.
    Thank you.
    [The prepared statement of Mr. Mihm follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.017
    
    [GRAPHIC] [TIFF OMITTED] T3837.018
    
    [GRAPHIC] [TIFF OMITTED] T3837.019
    
    [GRAPHIC] [TIFF OMITTED] T3837.020
    
    [GRAPHIC] [TIFF OMITTED] T3837.021
    
    [GRAPHIC] [TIFF OMITTED] T3837.022
    
    [GRAPHIC] [TIFF OMITTED] T3837.023
    
    [GRAPHIC] [TIFF OMITTED] T3837.024
    
    [GRAPHIC] [TIFF OMITTED] T3837.025
    
    [GRAPHIC] [TIFF OMITTED] T3837.026
    
    [GRAPHIC] [TIFF OMITTED] T3837.027
    
    [GRAPHIC] [TIFF OMITTED] T3837.028
    
    [GRAPHIC] [TIFF OMITTED] T3837.029
    
    [GRAPHIC] [TIFF OMITTED] T3837.030
    
    Mr. Horn. Thank you. We have two more witnesses and then we 
will open it to questions. I think it will be a very good 
dialog from all four of you.
    Our next witness is Maurice McTigue, distinguished visiting 
scholar, Mercatus Institute, George Mason University, and a 
fellow once parliamentarian. We were delighted to visit 
Australia and New Zealand in a trip last year to see if any of 
your fine work was still holding forth. In places, it is, so I 
would like to talk to you about that sometime.
    Go ahead.
    Mr. McTigue. Indeed, Mr. Chairman, and I would be delighted 
to talk to you about it.
    As you indicated, my experience is mainly as a politician 
and as a member of Cabinet, and at a time when my country was 
going through major changes, most of which were based upon the 
principle that is the founding principle of GPRA.
    I think for Congress one of the interesting factors 
involved in that process is that while it started 16 years ago, 
and there have been three changes of the party in power in 
governance in New Zealand, there has been no relaxation in the 
rigor with which the performance of government has been 
pursued.
    In the 3-years that I have been here in the United States 
and have worked closely with the agencies of government and 
also with Congress in terms of sharing some of our experiences, 
I think the thing that impresses me most about GPRA is that it 
does focus on changing the primacy of measures to a focus on 
outcomes.
    I have heard a number of people make comment this morning 
about efficiency. When I talk about the primacy of measures, it 
is that the primacy of the measure of effectiveness must 
outweigh considerations of efficiency. That is not something 
that legislatures have been good at doing in the past.
    I think if we were to look at the high spot of government 
performance over the past 3 years in the United States, it 
would be the success of the Y2K project. In my view, the 
success of that project was driven in no small part by people 
like yourself who actually asked the right questions. The 
question was the outcome question--will the computers work on 
January 1, 2000? It didn't focus so much on tell me what you 
have done, you kept focusing on ``will the computers work on 
January 1, 2000.''
    That is outcome-based scrutiny. We want to know the result. 
Can you actually deliver for us what you have promised you 
would deliver for us? If we looked at the principle that I 
think is important to Congress in considering this whole area 
of activity, that principle would really be this--``that all 
future decisions by government would be taken in full knowledge 
of the consequences of that decision.''
    In the past, I believe many decisions have been taken in 
full knowledge of what will be done but without full knowledge 
of the consequences of that decision. What GPRA does is shifts 
the focus of accountability to what were the public benefits 
from the expenditure of that money rather than what were the 
activities that were funded from the expenditure of that money?
    If we look at GPRA as a tool, then it breaks into four 
significant parts. The first part of the process is planning. 
Give to the public a fair expectation of what it is that you 
are going to achieve. The second part of it is implementation, 
putting in place and implementing those outputs that are meant 
to achieve that outcome.
    We have been through the first two stages of that with GPRA 
and I like to remind people that GPRA, while passed in 1993, 
only took effect for fiscal year 1999, so there is very little 
evidence at this stage of the success or otherwise of GPRA.
    As an ex-politician and working in a university at the 
moment, in my mind the most important part of GPRA is what 
occurs now. In March of this year, we saw the first round of 
disclosure of performance. What was in the reports of the 
agencies should disclose what was achieved and now we are at 
the fourth stage, what does Congress do in the process of 
oversight and scrutiny of those reports?
    To me that is the most important part. One of the things 
you need to do, in my view, is look at the quality of the 
reporting. Have you had placed in front of you sufficient 
knowledge and a high enough quality of information for you to 
be able to make decisions in the knowledge of the full 
consequences of those decisions? We at the Mercatus Center did 
a study on the quality of reporting and in many instances, the 
reports do not provide you with that capability. Some of them 
were good. Most of them lacked in a number of areas in terms of 
being able to identify for you what were the public benefits 
from these activities.
    In looking at those reports, I think you also need to look 
at not only are they open and transparent but is there full 
disclosure? For example, we found some organizations that 
describe their activity in terms of ``we fully met the goal'' 
when what they actually did was achieve 90 percent of the goal. 
Ninety percent might be a good measure in some cases but in 
some other areas, you might determine that was quite 
inadequate.
    In other cases, they described adequate performance as 
anything above 67 percent of goal. Those are very arbitrary and 
I think what you need to know is what was the percentage of 
each goal that was achieved rather than a broad-based measure 
like that. So that is full disclosure in my view and it is very 
important to the success of Congress's security of Government.
    What then might Congress do through committees like 
yourself? I believe what Congress has to do is to learn to 
conduct scrutiny based on outcomes rather than conduct, 
scrutiny based on process. What you need to be able to do is to 
look at a particular outcome: you are examining an agency, you 
pick a particular activity, look at that outcome. If you were 
to follow that outcome through, you would be able to say how 
much of the public good for this particular issue comes from 
this agency and how much from others.
    By following that outcome and looking at the effectiveness 
of each program, you can then make comparisons and finally get 
to a position of saying if we have optimal utilization of 
resources, here is the potential public benefit. The cost to 
the American public for suboptimal utilization of resources is 
the difference between optimal allocation and the status quo. 
We, the public could have had
this quantity of benefit and we are shortchanged by the amount 
that was placed in ineffective programs.
    That is the end of my testimony and thank you for the 
opportunity.
    [The prepared statement of Mr. McTigue follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.031
    
    [GRAPHIC] [TIFF OMITTED] T3837.032
    
    [GRAPHIC] [TIFF OMITTED] T3837.033
    
    [GRAPHIC] [TIFF OMITTED] T3837.034
    
    [GRAPHIC] [TIFF OMITTED] T3837.035
    
    [GRAPHIC] [TIFF OMITTED] T3837.036
    
    [GRAPHIC] [TIFF OMITTED] T3837.037
    
    [GRAPHIC] [TIFF OMITTED] T3837.038
    
    [GRAPHIC] [TIFF OMITTED] T3837.039
    
    [GRAPHIC] [TIFF OMITTED] T3837.040
    
    [GRAPHIC] [TIFF OMITTED] T3837.041
    
    [GRAPHIC] [TIFF OMITTED] T3837.042
    
    [GRAPHIC] [TIFF OMITTED] T3837.043
    
    [GRAPHIC] [TIFF OMITTED] T3837.044
    
    [GRAPHIC] [TIFF OMITTED] T3837.045
    
    [GRAPHIC] [TIFF OMITTED] T3837.046
    
    [GRAPHIC] [TIFF OMITTED] T3837.047
    
    [GRAPHIC] [TIFF OMITTED] T3837.048
    
    [GRAPHIC] [TIFF OMITTED] T3837.049
    
    [GRAPHIC] [TIFF OMITTED] T3837.050
    
    [GRAPHIC] [TIFF OMITTED] T3837.051
    
    [GRAPHIC] [TIFF OMITTED] T3837.052
    
    [GRAPHIC] [TIFF OMITTED] T3837.053
    
    [GRAPHIC] [TIFF OMITTED] T3837.054
    
    [GRAPHIC] [TIFF OMITTED] T3837.055
    
    [GRAPHIC] [TIFF OMITTED] T3837.056
    
    [GRAPHIC] [TIFF OMITTED] T3837.057
    
    [GRAPHIC] [TIFF OMITTED] T3837.058
    
    [GRAPHIC] [TIFF OMITTED] T3837.059
    
    [GRAPHIC] [TIFF OMITTED] T3837.060
    
    [GRAPHIC] [TIFF OMITTED] T3837.061
    
    [GRAPHIC] [TIFF OMITTED] T3837.062
    
    [GRAPHIC] [TIFF OMITTED] T3837.063
    
    [GRAPHIC] [TIFF OMITTED] T3837.064
    
    [GRAPHIC] [TIFF OMITTED] T3837.065
    
    [GRAPHIC] [TIFF OMITTED] T3837.066
    
    [GRAPHIC] [TIFF OMITTED] T3837.067
    
    [GRAPHIC] [TIFF OMITTED] T3837.068
    
    [GRAPHIC] [TIFF OMITTED] T3837.069
    
    [GRAPHIC] [TIFF OMITTED] T3837.070
    
    [GRAPHIC] [TIFF OMITTED] T3837.071
    
    [GRAPHIC] [TIFF OMITTED] T3837.072
    
    [GRAPHIC] [TIFF OMITTED] T3837.073
    
    [GRAPHIC] [TIFF OMITTED] T3837.074
    
    [GRAPHIC] [TIFF OMITTED] T3837.075
    
    [GRAPHIC] [TIFF OMITTED] T3837.076
    
    [GRAPHIC] [TIFF OMITTED] T3837.077
    
    [GRAPHIC] [TIFF OMITTED] T3837.078
    
    [GRAPHIC] [TIFF OMITTED] T3837.079
    
    [GRAPHIC] [TIFF OMITTED] T3837.080
    
    [GRAPHIC] [TIFF OMITTED] T3837.081
    
    Mr. Horn. Thank you.
    We have a vote on the floor now, so we are going to have to 
recess for 20 minutes. I think it is just one vote but why 
don't you all have a cup of coffee. Just go down to the 
basement and you can get plenty of coffee.
    We will be recess until at least 11:05 a.m.
    [Recess.]
    Mr. Horn. The committee will come to order.
    We will now continue with the last presenter, Ellen Taylor, 
policy analyst, OMB Watch. You might just tell us in a couple 
of sentences what OMB Watch is. This is your chance to plug it.
    Included that because I was afraid no one would know.
    Ms. Taylor. Thank you for this opportunity to testify. For 
those who don't know, OMB Watch is a nonprofit, research and 
advocacy organization that seeks to promote greater government 
accountability and citizen participation.
    For the past 3 years, we have actively sought to increase 
the participation of nonprofits as one kind of stakeholder 
under GPRA in the implementation of the act. I believe this 
work, including our lack of success in persuading nonprofits of 
the importance of GPRA, and our reflection on that, gives us a 
unique perspective from the others presented here. I hope it 
will be useful in these deliberations.
    This has already been said a number of times but it is very 
important that Congress and the executive agencies work 
together in a constructive way to accomplish GPRA. Second, 
Congress should mandate stakeholder involvement in the 
performance planning process, encouraging the active 
solicitation of comments on performance measures and ensuring 
that agencies have adequate resources to obtain outside 
comments.
    It is already part of the law that stakeholders must be 
involved during the strategic planning stage, but we would 
argue that the performance planning stage is the real meat and 
potatoes of GPRA and it needs outside involvement, and it needs 
involvement of State and local grantees who are involved in 
Federal programs.
    Third, Federal agencies must make greater use of the 
Internet to make data and performance measurement transparent 
and accessible to the public. I would suggest this kind of 
public exposure can actually help improve the quality of the 
data and mitigate some of the problems in data and in 
benchmarking.
    There is no doubt that GPRA is an important tool and yet we 
remain skeptical about whether it can achieve the purposes for 
which it was made into law. These three changes may help GPRA 
to strengthen government accountability and enhance public 
trust. I would like to look more closely at our 
recommendations.
    First, GPRA's success depends on government's commitment to 
it. Otherwise, it will simply become another kind of exercise 
in a long series. Government agencies we have seen are taking 
GPRA very seriously and they are taking it not as just another 
paperwork exercise, but as a real potential to do things 
differently, and to do things better.
    This can only happen with a concerted and constructive 
involvement of Congress, not as an antagonist but as a partner. 
In this regard, we encourage congressional committees to 
exercise their oversight authority but we would caution if that 
oversight is done in the context of partisanship or as a way to 
wage ideological battles, it will be detrimental. We should 
always remember that GPRA is about improving government and 
performance, not about downsizing or not about privatizing, or 
not about bean counting.
    While we recognize one of the distinguishing features of 
GPRA is its linkage to the budget, we also think it is 
important to realize that it is not a panacea for difficult 
budget decisions. Performance measurement may be a helpful tool 
in determining resource allocations but quantifiable measures 
of performance will never be enough.
    Finally, we think Congress has a golden opportunity here 
not only to emphasize the problems in government but to 
highlight those government programs that do work, that are 
effective and accomplish goals for citizens. Recent studies 
have shown that citizens rate government almost on a par with 
private services. Yet, mistrust of government as a whole is 
still a problem. We think one way of overcoming that is to 
start focusing on the successes of GPRA and not just on the 
failures.
    Our second recommendation is stakeholder involvement in 
performance planning. While we know the public can't become 
privy to Federal budget decisions, the performance plans are 
too important to disallow public engagement on the selection of 
benchmarks and performance measures. Performance information 
can be pulled out of the budget submissions and made available 
to stakeholders without impinging on the privileged nature of 
the budget.
    Finally, agencies need to use the Internet to make their 
GPRA plans and reports available but also to provide the public 
with the underlying data and the information used in their 
plans to measure performance. We believe that public exposure 
and input can positively affect the quality of that data.
    For example, even though the EPA never identifies specific 
amounts of reduction in emission of toxic chemicals, the public 
accessibility of their toxics release inventory helped to 
create an amazing 45 percent reduction in toxic emissions it 
was easy to find, easy to access.
    To conclude, frankly, we don't know whether the Results Act 
has achieved results during the past 7 years. We have doubts 
but we remain hopeful. GPRA was not meant to be perfect in the 
first go around and this really has been the first go around. 
We think it may succeed in its purposes if there is meaningful 
stakeholder involvement in the performance plans, including 
that of Federal grantees, if underlying data as well as plans 
and reports are publicly accessible and open and transparent, 
and if Congress will work in a constructive partnership with 
agencies to achieve GPRA's potential.
    Thank you for allowing me to speak.
    [The prepared statement of Ms. Taylor follows:]
    [GRAPHIC] [TIFF OMITTED] T3837.082
    
    [GRAPHIC] [TIFF OMITTED] T3837.083
    
    [GRAPHIC] [TIFF OMITTED] T3837.084
    
    [GRAPHIC] [TIFF OMITTED] T3837.085
    
    [GRAPHIC] [TIFF OMITTED] T3837.086
    
    [GRAPHIC] [TIFF OMITTED] T3837.087
    
    [GRAPHIC] [TIFF OMITTED] T3837.088
    
    [GRAPHIC] [TIFF OMITTED] T3837.089
    
    Mr. Horn. We appreciate your presentation and we are now 
going to go to questions. It will be 5 minutes for each and we 
will alternate between myself and Mr. Turner.
    Let me start with you, Ms. Taylor. I would be interested, 
based on your analysis, in what are the three top Federal 
departments and agencies that have successfully implemented the 
Results Act, if you were asked that question, which you just 
have been, what would you say?
    Ms. Taylor. I think I would hedge. I think maybe that is 
the wrong way to go about it, trying to identify the agencies 
that have done the best.
    Mr. Horn. We need some role models in this work.
    Ms. Taylor. Right. I think we should pick out parts of each 
agency's plans that meet the mark and use those as examples so 
other agencies with similar programs or for whom that 
information could be transferred.
    Mr. Horn. Give me an agency where they have something that 
has really made a difference in terms of using the Results Act.
    Ms. Taylor. I haven't read the results reports carefully so 
I am really at a loss to try to specifically give an agency. I 
think my example of the EPA and the toxics release inventory is 
an example of an agency who made information available and 
accessible and through that, allows the public to start urging 
accountability which aids the agency ultimately in their 
performance. I am sorry to be vague.
    Mr. Horn. Do you have any evidence that they have used 
measurements that would apply to other types of environmental 
problems?
    Ms. Taylor. I think that approach would be transferrable to 
other agencies, to other kinds of problems government is trying 
to solve. I think we all agree that sometimes the data is 
lacking and the agencies are struggling to come up with the 
right benchmarking and starting measures to show they have 
measured performance, so I think the openness of the data so 
the public can see it and can know what they are starting from 
and where they are trying to go is really important.
    Mr. Horn. Mr. McTigue, what is your answer to that 
question?
    Mr. McTigue. This is an opportunity to make myself very 
unpopular with a lot of people. The three I would pick I would 
pick for different reasons. I would pick the Department of 
Transportation because in my view they are using 
comprehensively the principles of the Results Act to influence 
their decisionmaking.
    One of the things that impressed me most about the 
Department of Transportation is that in their internal budget 
negotiation round, what they do is identify 10 priority areas 
and other areas of activity and if necessary they have to 
concede resources to those 10 priorities. Those priorities are 
set very much on the basis of the outcomes we need to achieve. 
So I think there is a good example of making comprehensive use 
of the principles of GPRA.
    If I looked at who has been most successful in changing 
their outcomes, I would say Veterans Health because Veterans 
Health starting about 5 years ago, moved the emphasis of that 
entire organization to the imperative of improving the wellness 
of veterans, and they direct their resources to that particular 
end goal.
    They have some wonderful information that looks at the 
efficacy of different health procedures inside veterans 
hospitals and other facilities and how the efficacy of those 
procedures has significantly improved over time to the point 
now where they are equal to or better than those procedures in 
public and private hospitals. That is a dramatic outcome 
improvement.
    If I was to look for the organization where Congress and 
the American public are getting the greatest benefit in terms 
of their tax dollars, I would say it is FEMA because today FEMA 
is doing about 20 percent more for about 25 percent less money 
in its administrative budget while managing more disasters.
    In addition to that, it has also moved to a new and very 
important focus on mitigation. How can they continually reduce 
the consequences of a disaster on individuals and communities 
so that at the same time they are dealing with their base 
cause, which is helping people get their lives together, after 
a disaster they are also looking at how they can minimize the 
impact.
    Those would be my three choices but for three very 
different reasons.
    Mr. Horn. What is your suggestion, Mr. Mihm?
    Mr. Mihm. One of the advantages of being third is that it 
gives me to time to think. The disadvantage is when someone 
steals some of the best ideas, so I am going to agree in large 
measure with what has been said.
    I think the Department of Transportation as a department is 
clearly one of the leaders. That is, when you look across their 
various modal administrations, you see a lot of leadership from 
the Coast Guard, National Highway Traffic Safety Administration 
is certainly one of the leaders in this; FAA, despite a lot of 
other high risk problems, is beginning to come along as well.
    Social Security Administration, I would put as one of the 
leaders. I think that is a function of two things, one, their 
experience in doing accountability reports under the Government 
Management Reform Act led them early to be thinking about how 
they pull together and talk about what they are doing and 
accomplishing. I also think it is a function in SSA that a lot 
of their outcomes are more outputs, making sure the right check 
gets to the right bank account on the right day. Nevertheless, 
they have done a fairly sophisticated job in thinking about 
their goals and presenting them in that regard.
    I would also agree with Veterans Health Administration. The 
chronic disease prevention index that they have has become 
quite sophisticated looking across a variety of diseases such 
as: diabetes, obesity, heart disease. It is a quite 
sophisticated index that they are able to evaluate the 
performance of VHA generally as well as each of their 
integrated service centers, and to talk about how they are 
doing.
    We are doing a review at the request of Mr. Burton that is 
looking at how the performance goals are being drilled into the 
contracts of senior managers at VHA and elsewhere. So I would 
put them among the leaders as well.
    Mr. Horn. Mr. Gotbaum, I want you to answer the question 
last because you have the overall view from the executive 
branch. Then I will give 10 minutes to Mr. Turner for his 
questioning because we are obviously going over 5.
    Mr. Gotbaum. I am sure you have run into this dilemma; what 
do you say when everything has been said but not everyone has 
said it. I don't disagree with these particular analyses, so 
what I would like to do is elaborate on a couple of points.
    One, Veterans Affairs. The work that was done in Veterans 
Health has been very impressive. I would note the Department of 
Veterans Affairs is now taking the next step we talked about, 
which is that they are trying to both realign their budget 
accounts so they follow program lines and to modernize their 
financial systems to take them into account.
    I mentioned moving from output measures and asking how good 
the reports are, to outcome measures, how much is incorporated 
into management. The Department of Veterans Affairs is really 
trying to go this next step, for which I personally commend 
them.
    Social Security and NASA are interesting cases because 
these agencies really were concerned with accountability and 
were a little slow to develop the skill on the performance side 
but have clearly gotten it, and gotten it very well. The nice 
thing is, because they were so concerned with accountability in 
the first place, each has produced reports that cover both 
financial accountability and performance. That achieves the 
goal that you mentioned which we agree is quite important: 
people want to know what they get and what they pay for with 
their money.
    The last one I want to mention is Education. I want to 
mention it because of two things. One, the task is hard. A 
large part of the Department of Education budget is programs in 
which they send checks to States and local governments who 
implement their programs. So one of the real tasks and real 
difficulties for Education is: what is it I measure? What is it 
I am accountable for? Am I accountable for merely how quickly I 
send the check or how carefully I review the State agency's 
plan, or should I be accountable for literacy levels in local 
jurisdictions?
    In my view, one of the impressive and honest things in the 
Department of Education's accountability report is how clear 
they are that they are keeping track of both but they haven't 
yet figured out what is the best tie between their activities 
and final results. I commend them, partly because they have 
improved dramatically over the last year, and partly because 
they are honest about the linkage question which is, for those 
of us in the Federal Government, really very important.
    Mr. Horn. Thank you very much.
    Ten minutes of questioning to the gentleman from Texas, Mr. 
Turner.
    Mr. Turner. One of the areas I want to spend a little time 
with each is discussing the role of the Congress and the 
committees in successful implementation of the Results Act. I 
want to do that because I think when we look honestly at the 
origin of this legislation, it did begin as a bipartisan 
effort.
    As I recall, Mr. Conyers and Mr. Clinger were the co-
sponsors in the House and Senator Roth was the sponsor in the 
Senate. I frankly believe the success of GPRA not only will lie 
with the ability of the agency managers to put GPRA and the 
performance measures in place and to properly evaluate them, 
but it is going to depend on the ability of Congress to carry 
out its role in GPRA.
    I think we need to jealously guard the bipartisan nature of 
this legislation. Frankly, I really think it is not only 
important to jealously guard it to ensure its success, I think 
it is probably poor politics to do otherwise because if you 
make an effort to make efficiency and effectiveness of 
government a partisan issue, it is like trying to make 
motherhood a partisan issue. I don't think the public is going 
to buy into it. I think they understand both sides of aisle 
believe in efficiency and effectiveness in government.
    I think if we can ensure the Congress approaches this 
legislation in that manner, I think we have the hope of its 
ultimate success. If we fail to do that, I think we sow the 
seeds of its destruction.
    In keeping with those thoughts, I want to first ask a 
question perhaps of any of you who would like to respond. I 
think I might want to start with Mr. Mihm.
    One of the key things we all know ultimately GPRA is all 
about, as I think Mr. McTigue expressed in his testimony, is 
that Congress should be able not just to see government 
agencies manage activities and then hope for results, but as 
you said in your testimony, GPRA makes it possible for Congress 
to choose to do only those programs that will produce results.
    With that concept, we will change the way the Congress 
conducts oversight and review of our agencies. So what I would 
like to do even though I acknowledge GPRA is in its infancy and 
this is only the first year, even though passed in 1993, of 
full implementation, I would like you all to give me an 
example, if you have one, of where the Congress has made a 
decision, based on your observations of the work of the 
committees, to either fund or not fund a program based upon the 
Results Act and the information flowing from a given agency 
produced by the Results Act.
    Mr. Mihm. I think we would be hard pressed to point out 
here is where a budget was increased or decreased because the 
appropriators saw and said we are doing this because of GPRA.
    However, one of the things we need to guard against is 
setting the bar so high that if someone doesn't say they are 
doing something because of GPRA, we call the law a failure. In 
other words, when you take a look at the appropriations 
committee reports--we have examined committee reports that have 
come out of the appropriators--there is plenty of language in 
there that talks about how performance information was being 
used in their decisions, that talks about the goals and the 
actual performance of a program.
    GPRA is not often mentioned. However, it is very clear 
where that information that is being used is coming from. It is 
coming from GPRA plans and products. The point I am making is 
that while I would be hard pressed to say here is something 
that happened only because of GPRA, we are seeing the 
conversation change, more attention to performance information. 
GPRA is contributing to that environment and so in that sense, 
we are seeing appropriations decisions are beginning to be 
influenced or at least colored by a greater attention to 
performance and performance information.
    Mr. Turner. Mr. Gotbaum, have you seen examples where GPRA 
results have affected the funding decisions of the Congress?
    Mr. Gotbaum. I believe so. I meant what I said in my 
testimony. I believe that we have always--we at OMB and the 
Congress in its deliberations--looked for information about 
programs. What is it doing? What is it actually accomplishing? 
GPRA provided the force of law and the process and the language 
that enhanced that.
    I agree and accept Chris' point which is I am not sure I 
can hand you a case in which I can tell you the chairman of an 
appropriations subcommittee said, based on the Social Security 
Administration's performance report, I change their level. I 
don't think that is the right test.
    I think there are lots of cases in which the fact the 
discussion is based on performance and not on dollars has 
changed the discussion. Let me mention one. This is one which 
was controversial.
    The President proposed a couple of years ago what we call 
the Class Size Initiative. He said, I would like to provide 
funding so that school districts in grades 1 through 3 didn't 
have to have class sizes larger than 18. This got translated 
into 100,000 teachers.
    I don't mean to raise this so that we can talk about the 
merits of that particular proposal, but I think it is important 
that we recognize that was a proposal that was framed not as 
let us expand the budget of the Department of Education by $1 
billion. That wasn't what he said and that wasn't what the 
debate was.
    He said, let us focus on class size. The interesting thing 
was the congressional debate then became should we tie Federal 
dollars to class size or should we work on a more generic block 
grant. So that is a case in which I think the debate was 
affected very powerfully by the fact that it was framed in 
terms of performance measures.
    There are to be sure intermediate measures. Class size is 
not literacy but it is a heck of a long way from the let us 
just increase the budget of the Department of Education by 10 
percent.
    I think we all recognize and everyone is conscious of the 
fact that performance information alone isn't going to take 
away the need to make choices. The President and Congress are 
going to have to say, I think we should do more in education 
versus defense, environment or whatever, but I really do feel 
and I have watched it in the budget process in case after case 
after case, the more debate goes toward measures other than 
dollars, the more focused the debate is and in my view, the 
better the ultimate decisionmaking.
    I am enormously grateful for your point about the 
bipartisan support for GPRA. We feel that very strongly. My 
colleague from OMB, Walter Groszyk, although he generally 
doesn't admit it, helped draft GPRA. We think it is very 
important that the Congress work on it, work on it 
aggressively, work on it expansively and work on it in a 
bipartisan fashion.
    Mr. Turner. Mr. McTigue, do you have any examples you could 
cite where you have seen Congress or a committee actually make 
a decision on funding based on results?
    Mr. McTigue. The first comment I would make is with all due 
respect, I think your question is a little bit premature 
because you are only now seeing the first of the annual reports 
based on that. Quite frankly, the quality of the reporting at 
the moment does not provide you with information where you 
could clearly say we should cancel this activity.
    To approximate an answer to your question, I think the 
principles that probably led to the writing of GPRA in 1993 
have certainly been applied by Congress to a number of 
organizations. If you take the five, in my view, highest 
performing organizations in government, each and every one of 
them has been subjected to intense scrutiny by this Congress in 
the last 10 years.
    FEMA was slated by Congress to be wiped out in the early 
1990's unless it was able to improve its performance. Today, it 
is one of the best performing government organizations and 
meeting the criteria of GPRA. You can say exactly the same 
thing for the Department of Transportation, for NASA, post the 
shuttle crash, that intense congressional interest dramatically 
changed the way in which that organization focused and 
delivered. You can say exactly the same sort of thing for 
Veterans Health. I think in those areas Congress has played a 
very significant role in improving a total organization and its 
culture.
    What could Congress do now? I think there are two things 
that I believe are very important right now for Congress. You 
should insist on greater transparency in the reporting that you 
get from agencies and greater disclosure. That would be very 
helpful to your role. The second thing is controversial and it 
is internal and that is Congress should conduct some reform 
itself. That reform would be that the processes of oversight, 
authorization and reauthorization should be used as a means of 
informing the process of appropriation, not commanding it but 
the knowledge built up in hearings like this should be used to 
inform whether or not an appropriation is appropriate for this 
particular program or activity.
    Mr. Turner. Ms. Taylor.
    Ms. Taylor. I would agree with Mr. McTigue about the fact 
that we can't use GPRA right now in making budget decisions. It 
really is too early and I think the important thing Congress 
should be concentrating on right now is the issue of 
performance, not to make agencies terrified that they are going 
to lose their budget because their performance rates are low 
because we don't want this to lead to performance goals that 
are so low that an agency can easily meet them and say, look, I 
met my performance goals.
    Rather, they should be striving for higher goals. I think 
we would all agree. I am just afraid if we directly tie it to 
the budget at this point, the only performance reports will be 
good performance reports and yet they won't be meaningful in 
terms of the act.
    Mr. Turner. I didn't expect any of you really to give me 
any real concrete examples and frankly only asked the question 
to make the point that as we look at the agencies and their 
efforts to implement GPRA, Congress has an equal responsibility 
to begin to use GPRA. Though the Congress, being the 
deliberative body and elected by the people, may not always 
choose to fund programs based on results, it does need to 
become a part of the culture of the Congress. I frankly think 
the Congress is a long way from that kind of approach.
    I think Mr. McTigue, you put it very well when you 
suggested that in order to win the confidence of the public and 
improve the quality of government performance, the scrutiny 
provided by the Congress must be robust, focused on results, 
committed to rewarding superior activity and equally committed 
to punishing poor performance.
    I am not sure that is really a part of the process, not to 
say that process would result in the ultimate decision because 
other considerations may override and maybe appropriately so in 
certain circumstances. Somehow, as we try to train the managers 
in the agencies, we in Congress are going to have to be trained 
as well.
    I thank each of you for your comments.
    Mr. Horn. Thank you. You and the chairman of the full 
committee seem to be on the same track. Your questions and his 
if he were here, wanted to ask the point you had made on what 
is Congress doing on this.
    Let me go back to the reverse of what I was going from Ms. 
Taylor back to Mr. Gotbaum. Starting with Mr. Gotbaum, please 
name the Federal departments and agencies that have been 
unsuccessful in their implementation of the Results Act. Can 
you give me three or four?
    Mr. Gotbaum. As we have discussed before, usually Mr. Ose 
asks this question but he always asks it, and I know it is a 
concern.
    Mr. Horn. So you came prepared?
    Mr. Gotbaum. I came prepared with the same response, 
unfortunately, I gave each of the two times he asked. I think 
in order for OMB to be effective in its role as supervisor, 
encourager, combination cheerleader and sanctioner of agency 
performance, we need to use a combination of public praise and 
private criticism. So I have to resist the temptation to 
mention by name any of the agencies that disappoint. There 
certainly are several agencies whose performance reports look 
like they haven't taken the time to think through what they are 
trying to do and whose performance reports look an awful lot 
like they are describing their programs instead of describing 
their results and performance.
    There are certainly agencies whose performance reports look 
exactly like their organizational chart and their measures 
don't appear to have been linked to programs, which obviously 
is a problem. There are agencies whose performance reports 
don't include what intermediate output measures, efficiency 
measures, we think matter. There are plenty of grantmaking 
agencies that don't include information and don't even collect 
information on what is the turnaround time from the time a 
grant is applied for to the time a decision is made, and what 
is the turnaround time from the time a decision is made to 
actually delivering the check.
    I mention those as shortcomings in a range of agencies 
reports. I would, with the committee's forbearance, like to 
avoid naming the names but instead naming the sins because I 
think the sins are pretty clear.
    Mr. Horn. Did you read Mr. McTigue's study on who was ahead 
and who was behind?
    Mr. Gotbaum. I did.
    Mr. Horn. Would you say he gave a fair appraisal there?
    Mr. Gotbaum. I think he gave a fair appraisal of part of 
the things that we would like to look for. As I mentioned, 
clarity matters, linkage matters, and those are some of the 
things that Mr. McTigue's review focused on.
    We think there are other things. I view those in this 
process as outcome measures. What he was doing and was forced 
to do was evaluate the performance reports. What we are trying 
to do, we hope, is implement what we think is the outcome of 
GPRA, which is the extent to which these agencies are 
developing performance measures and using them in management 
and budget. For example, I give very high marks to the 
Department of Veterans Affairs, not just for the fact that they 
have clear measures in health but, that they are actually 
trying to realign programs and information systems. For me that 
is a very substantial task.
    That is not something which would necessarily be evident 
from reading their report. So I would say Mr. McTigue's report 
is an incomplete measure of what agencies are doing. The fact 
is that moving beyond reports to implementing this is a harder 
job and it is a job at which we are still at the initial steps. 
So his analysis covers most of the things you can see right 
now.
    I wouldn't want it to be seen as the complete measure 
because the best reports in the world, the clearest reports in 
the world with the finest measures in the world, if they are 
not actually used, are just paper. So we hope we in our 
analysis, and you in your oversight, will not stop at judging 
the quality of reports, that you will continually ask agencies, 
``This is great, you got a good report, but what are you doing 
with this information? Are you managing to it? Are you changing 
your management systems? Are you changing your information 
systems? Are you really doing what GPRA was supposed to do?''
    Mr. Horn. We went through this with Y2K. Nothing was being 
done by OMB, period. Nothing was being done by the 
administration in April 1996. We had to just get them in here 
and say, what are you doing, started the grading aspect and all 
that, and that finally shook them up a little. Two Cabinet 
office friends of mine said keep at it. It is the only way I 
can get this bureaucracy working. It worked.
    I am not a Mr. Fuzzy type. I am anything but that. All I 
can say is the question has been asked, it should be answered, 
you are under oath and we want the information. I want to know 
what are the ones that have not done as good a job as they 
should have. That ought to help you, unless they cry too much 
and say, I won't do it. That is nonsense. Tell us which ones 
aren't producing.
    Mr. Gotbaum. I think that this is a case that is in some 
respects different from Y2K for a bunch of reasons. Frankly, it 
is a harder, more complicated job. As I mentioned in my 
testimony, I think this is a case in which we at OMB have 
turned on the heat progressively, I would hope progressively 
more effectively. We started by saying send us reports, then 
saying send us information but these are, as Mr. Turner 
mentioned, as Mr. Armey mentioned and Mr. Sessions mentioned, 
sufficiently early days in that process so that I don't think 
we can say and I wouldn't pretend that we are there. We are not 
at the promised land. I kind of think of this in biblical terms 
as maybe we have crossed the Red Sea but we have a long time in 
the desert yet.
    I really do think that we can be most effective not by 
dropping the dime on people but by talking about what are the 
standards we think they should meet, hoping you will agree or 
disagree.
    Mr. Horn. People have had 8 years and you don't say they 
shouldn't be noted if they haven't produced much after 8 years?
    Mr. Gotbaum. The issue is not whether agencies are 
producing plans and reports. They are. This is not a case in 
which any significant agency has just dropped the ball entirely 
and said, I am not going to implement GPRA. That is not what is 
going on here.
    Every significant agency--we have 100 strategic plans, 100 
performance plans, almost 100 performance reports. The issue is 
a little more subtle than that which is, when you read these 
things, are they picking measures that are relevant, then 
getting to the point that Chris mentioned and Ellen mentioned, 
are they picking measures, are they picking goals that are 
either too high or too low. We get a lot of that.
    I guess if I wanted to be a cheerleader, I could say the 
good news is we have 100 agencies complying with the law, they 
are turning out reports but I think and I hope your oversight, 
like our oversight, goes beyond that and says, are they picking 
the right measures. We have a huge range. We have agencies like 
DOT that did pretty well the first time and are doing OK and we 
have agencies like Education that didn't do so well the first 
time and SSA that didn't do so well the first time and are 
getting better, and we have agencies where I think it is clear 
they have a ways to go in terms of their measures.
    If the question is, are they complying with the law, they 
are complying with the law, but I know our goal and I believe 
your goal as well is that they do more than comply with the 
law, that they use the stuff and incorporate it, that they are 
working on it.
    Mr. Horn. Have you got a unit under your control in OMB 
that is working on types of measurement across the various 
parts of the executive branch?
    Mr. Gotbaum. We have some efforts and I don't want to 
mislead the committee. We have some efforts that are cross-
cutting efforts. For example, on the procurement side, the 
Office of Federal Procurement Policy, which is in OMB, 
developed a set of Governmentwide measures for efficacy on the 
procurement side which they are now putting out which will 
enable people to benchmark procurement.
    On the grant side, partly as a result of pressure under a 
different law, Public Law 106-107, an act out of this 
committee, that said review grants. We have set up a process 
where we are trying to get agencies to come together and talk 
about where grant programs are on either a common constituency 
or for a common purpose, how we can simplify and consolidate 
and measures will be part of that effort.
    I can say yes, we are making some efforts in that area.
    Mr. Horn. So there is a unit that you can count on in terms 
of developing measurements for various programs?
    Mr. Gotbaum. Yes.
    Mr. Horn. Mr. Mihm, since the witness from the 
administration refuses to answer the question, will you answer 
the question and we will follow your advice and have them all 
in here. Please tell us what you think are the ones that aren't 
really conforming and have been unsuccessful in implementation.
    Mr. Mihm. If I was going to pick out of the 24 CFO Act 
agencies a handful of agencies having the biggest trouble with 
this, I would include the Office of Personnel Management, the 
Department of State and the Small Business Administration.
    One of the things that brings the three of them together is 
that they are agencies that have real challenges to try to 
determine that critical point of how what they do makes a 
difference. All of them are really struggling with that.
    In the case of OPM and SBA, it is an even larger issue as 
to their relevance and it is something that is beginning to be 
raised and questioned. Those are the agencies that are really 
having a real struggle.
    I would agree with one thing Mr. Gotbaum raised and that is 
there is no agency that has got this entirely licked and no 
agency that hasn't made improvement over the last couple of 
years. Everyone is moving and moving in the right direction but 
clearly there are some agencies that are lagging the rest. I 
think those three are among them.
    Mr. Horn. What do you think is the reason on the three you 
picked?
    Mr. Mihm. I think in part it deals with the difficult in 
connecting what they do on a day to day basis to a larger 
result; in some cases it was because of that difficulty I think 
senior leadership at the agency was slow to embrace GPRA and 
understand the seriousness of the Congress. The first couple of 
annual performance plans from the Department of State, I hope 
senior management wasn't too involved in putting those 
together. The most recent one does reflect the use of 
qualitative goals which is allowed by the Act with OMB's 
authorization. As a result, you now have a far more 
sophisticated discussion of what State is trying to achieve and 
how it will hold itself accountable.
    In the case of SBA, we have seen a couple of years in a row 
where their mission statement is right in the sense that it is 
based on statute and the goals are now outcome oriented goals. 
The performance measures for those goals are things like 
contacts to small businesses, numbers of loans made. This is 
little connection between those performance measures and the 
results they are trying to achieve.
    In the case of the Office of Personnel Management, there is 
an agency whose relevance and real fundamental mission is now 
under question. It is not as though the annual performance plan 
is going to resolve that but the annual performance plan I 
don't think gives a real indication of the struggle or how they 
are trying to work their way out of that.
    Mr. Horn. Mr. McTigue, do you agree with Mr. Mihm's OPM, 
State, SBA? Is that what your study would confirm?
    Mr. McTigue. I couldn't actually confirm that. I suspect 
that what he is saying is correct because we haven't actually 
conducted a study of who are those organizations that missed 
their goals by the most. Even that may not be very informative 
because in the first instance, some organizations set really 
strict goals and 95 percent of that goal might be very good 
performance where others set fairly easy goals and 100 percent 
performance may not be very adequate.
    I think we have been able to note what I would call the 
conglomerate organizations, like Agriculture, Justice and 
Labor, those that have a huge number of stovepipes have found 
it more difficult to implement GPRA because there is not a 
common mission. Some of that is due to mission creep over a 
long period of time inside the government, so they are doing 
some odd things that don't really belong in their portfolio.
    The other is that it is quite difficult to get a single 
purpose or an imperative for that organization and they are 
still battling with what is the imperative that drives us as 
the Department of Agriculture or the Department of Commerce. I 
think you will find that is one of the missing factors with 
those organizations. They are trying but they are finding it 
more difficult. It's easy to write a mission statement, it is 
easy to have an imperative if you are NASA, FEMA or 
Transportation or something like that. It is much more 
difficult if you are the Department of Agriculture with 78 
different stovepipes that you have to account for.
    Mr. Horn. Mr. Gotbaum, would you agree with what Mr. Mihm 
has selected there in terms of the three agencies.
    Mr. Gotbaum. Actually, no, I wouldn't. The State Department 
has conceded publicly that they were late to the party and that 
they are now paying more attention, that they have a ways to go 
and I agree with that.
    On SBA and OPM, I guess everything in life is relative but 
I can't remember personally the OPM report but in the SBA 
report, they were clearly making efforts to link their programs 
to results and to benchmark them, so let us just say there are 
other agencies which as I say I would prefer not to name, that 
have not, as far as I am concerned, made that attempt, made 
that basic linkage, whereas SBA I know has and I think OPM too, 
at least attempted to make the linkage.
    So I allow the State example and I would suggest there are 
some other places that GAO might want to look.
    Mr. Mihm. We will take your suggestions off-line.
    Mr. Horn. The gentleman from Texas?
    Mr. Turner. Nothing else, Mr. Chairman. Thank you.
    Mr. Horn. Thank you very much.
    We appreciate your coming. We do expect the answer to that 
question.
    With that, we are in adjournment.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T3837.093

[GRAPHIC] [TIFF OMITTED] T3837.094

[GRAPHIC] [TIFF OMITTED] T3837.095

[GRAPHIC] [TIFF OMITTED] T3837.096

[GRAPHIC] [TIFF OMITTED] T3837.097

[GRAPHIC] [TIFF OMITTED] T3837.098

[GRAPHIC] [TIFF OMITTED] T3837.099

[GRAPHIC] [TIFF OMITTED] T3837.100

[GRAPHIC] [TIFF OMITTED] T3837.101

[GRAPHIC] [TIFF OMITTED] T3837.102

[GRAPHIC] [TIFF OMITTED] T3837.103

[GRAPHIC] [TIFF OMITTED] T3837.104

[GRAPHIC] [TIFF OMITTED] T3837.105

                                   - 
</pre></body></html>
